BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-641
LSP TRANSMISSION HOLDINGS, LLC,

Petitioner,
V.

KATIE SIEBEN, DAN M. LIPSCHULTZ, MATTHEW
SCHUERGER, JOHN TUMA, VALERIE MEANS, STEVE
KELLEY, ITC MIDWEST LLC, NORTHERN STATES
POWER COMPANYDIBIAXCEL ENERGY,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Brief of Former FERC Chairman Jon
B. Wellinghoff as Amicus Curiae in Support of
Petitioner contains 2,443 words, excluding the parts of
the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on December 10, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
1 www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

